<html>
<title> - HEARING TO REVIEW AGRICULTURE RESEARCH PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
            HEARING TO REVIEW AGRICULTURE RESEARCH PROGRAMS 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, CREDIT,
                          ENERGY, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

                           Serial No. 110-20


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-216 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























































                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 KEVIN McCARTHY, California
NICK LAMPSON, Texas                  TIM WALBERG, Michigan
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

           William E. O'Conner, Jr., Minority Staff Director

                                 ______

       Subcommittee on Conservation, Credit, Energy, and Research

                   TIM HOLDEN, Pennsylvania, Chairman

STEPHANIE HERSETH SANDLIN, South     FRANK D. LUCAS, Oklahoma, Ranking 
Dakota                               Minority Member
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
JIM COSTA, California                STEVE KING, Iowa
BRAD ELLSWORTH, Indiana              JEFF FORTENBERRY, Nebraska
ZACHARY T. SPACE, Ohio               JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           TIM WALBERG, Michigan
DAVID SCOTT, Georgia                 TERRY EVERETT, Alabama
JOHN T. SALAZAR, Colorado            JERRY MORAN, Kansas
NANCY E. BOYDA, Kansas               ROBIN HAYES, North Carolina
KIRSTEN E. GILLIBRAND, New York      SAM GRAVES, Missouri
DENNIS A. CARDOZA, California        JO BONNER, Alabama
LEONARD L. BOSWELL, Iowa             MARILYN N. MUSGRAVE, Colorado
STEVE KAGEN, Wisconsin
JOE DONNELLY, Indiana

               Nona Darrell, Subcommittee Staff Director

                                  (ii)



































                             C O N T E N T S

                              ----------                              
                                                                   Page
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  prepared statement.............................................    10
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     1
     Prepared statement..........................................     3
Kagen, Hon. Steve, a Representative in Congress From Wisconsin, 
  prepared statement.............................................    13
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     4
     Prepared statement..........................................     5
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     7
     Prepared statement..........................................     8
Walz, Hon. Timothy J., a Representative in Congress from 
  Minnesota, prepared statement..................................    12

                               Witnesses

Buchanan, Dr. Gale, Under Secretary for Research, Education and 
  Economics, U.S. Department of Agriculture, Washington, D.C.....    14
    Prepared statement...........................................    17
Danforth, M.D., William H., Chancellor Emeritus, Washington 
  University; Chairman, Donald Danforth Plant Science Center; 
  Chairman, Coalition of Plant and Life Sciences, St. Louis, MO..    39
    Prepared statement...........................................    41
    Submitted report.............................................    44
McPheron, Dr. Bruce A., Associate Dean for Research and Director, 
  Pennsylvania Agricultural Experiment Station, Pennsylvania 
  State University, University Park, PA; on behalf of National 
  Association of State Universities and Land-Grant Colleges......   110
    Prepared statement...........................................   112
Norton, Dr. George W., Professor of Agricultural and Applied 
  Economics, College of Agriculture and Life Sciences, Virginia 
  Tech, Blacksburg, VA...........................................   122
    Prepared statement...........................................   124
Bouton, Ph.D., Joseph H., Senior Vice President and Director, 
  Forage Improvement Division, The Samuel Roberts Noble 
  Foundation, Inc.; Professor Emeritus, University of Georgia, 
  Athens, Ardmore, OK............................................   130
    Prepared statement...........................................   132

                           Submitted Material

Amasino, Dr. Rick, Professor, University of Wisconsin; President, 
  American Society of Plant Biologists, Madison, WI..............   149
Atkinson, Ph.D., Stephanie, President, American Society for 
  Nutrition......................................................   168
National Corn Growers Association, Washington, D.C...............   165
Report of the Farm Foundation, Oak Brook, IL.....................   161
Thaemert, John, President, National Association of Wheat Growers; 
  on behalf of National Wheat Improvement Committee..............   155
Weber, M.P.H., R.N., Jennifer A., American Dietetic Association, 
  Washington, D.C................................................   159


            HEARING TO REVIEW AGRICULTURE RESEARCH PROGRAMS

                              ----------                              


                         THURSDAY, MAY 10, 2007

                  House of Representatives,
 Subcommittee on Conservation, Credit, Energy, and 
                                          Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Tim Holden 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Holden, Herseth Sandlin, 
Cuellar, Costa, Ellsworth, Space, Walz, Scott, Salazar, 
Gillibrand, Kagen, Peterson (ex officio), Lucas, Fortenberry, 
Schmidt, Moran, and Bonner.
    Staff present: Nona Darrell, Craig Jagger, Tyler Jameson, 
Rob Larew, Merrick Munday, John Riley, Sharon Rusnak, Anne 
Simmons, Debbie Smith, Kristin Sosanie, John Goldberg, Josh 
Maxwell, and Pete Thomson.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. This hearing of the Subcommittee on 
Conservation, Credit, Energy, and Research to review 
agricultural research programs will come to order. Good 
morning, everyone. I would like to welcome all of you to 
today's hearing and I hope it will provide a useful review of 
agricultural research programs.
    The farm bill hearings we held across the country last year 
showcased the importance of an increasing demand for 
agricultural research. Specialty crop growers called for 
additional and enhanced research programs to maximize their 
production and efficiency. Other farmers wanted more funding 
for research on conservation practices. Even more producers 
asked us for increased research and development on renewable 
energy. Clearly the fundamental need for research spans across 
several different commodities and various agricultural sectors. 
Currently several agencies within USDA, state partners and 
private organizations conduct the bulk of agricultural 
research. Recently revised calculations on the rate of return 
on Federal investment in agricultural research is estimated to 
be 6.8 percent per year. So these programs are not only in high 
demand with users, but they are fiscally responsible as well.
    Agricultural research, education, and extension programs 
are also essential elements in increasing agriculture 
productivity so that farmers can continue to provide American's 
with a safe and reliable supply of food, fiber and fuel they 
have come to expect. Advances in agricultural science are 
important to increasing farm profitability, continuing 
agricultural viability, competing in the international 
marketplace, improving nutrition and protecting the 
environment. As we write this new farm bill, we must ensure 
that the integrity of these programs remains intact and the 
organizations involved can continue their successful work.
    In these times of budgetary constraints, the proposals to 
consolidate or rearrange programs within USDA may be very 
helpful in enhancing cooperation and streamlining research to 
save the taxpayers' dollars. But we must be cautious in these 
changes and ensure that the quality and function of the 
programs are not compromised in that process. We must be 
innovative in meeting all of the different research needs and 
adapting to the increasing demand for newer areas addressing 
topics like organic farming and global climate change. Research 
is an important investment in our future.
    I look forward to hearing the witnesses' suggestions on how 
we can best support the agricultural research community and 
continue to support the scientists doing this important work.
    [The prepared statement of Mr. Holden follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I now recognize the Ranking Member, my good 
friend, Mr. Lucas from Oklahoma, for an opening statement.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    Mr. Lucas. Thank you, Mr. Chairman, and thank you for 
holding this hearing. As I understand it, this hearing is the 
last one our Subcommittee will hold before we begin marking up 
the various titles of the farm bill. This should not be taken 
as any type of a message about where research fits into this 
Committee's priority list. In fact, I think I can safely say 
that among the various issues we deal with, research seems to 
be at or near the top of every list of priorities.
    Agricultural research has played a critical role in the 
increase in agricultural productivity since the mission was 
first established in 1862. Advances in the basic and applied 
agricultural sciences are considered fundamental to increases 
in farm sector profitability, to competitiveness in the 
international agricultural trade, and to improvements in human 
nutrition and food-related health.
    According to a recent CRS report, as the Chairman just 
noted, the rate of return on Federal investment in agricultural 
research is estimated to be 6.8 percent a year. While most of 
what we do here tends to focus on the big picture, it seems 
that every organization who expresses an interest in research 
tends to focus on their own interests. Even the research 
community itself has tended to do this. Debate over research 
has always been about how much money is needed for their 
project or program, not always about the mechanism of delivery 
or the structure of how we establish priorities. This 
Committee, however, does not allocate money for discretionary 
programs. That is the job of the appropriators. Our job is to 
design the best policy to ensure that funds made available for 
research are used in the most efficient manner.
    I am pleased to see that we have several proposals from the 
research community on what they would like included in the 
research title of the farm bill. These are some of the most 
aggressive and forward-thinking policy initiatives I have seen 
regarding agricultural research. I am very interested in 
today's hearing discussions about the pros and cons of each of 
the proposals that have been submitted. However, we must 
remember that farmers and ranchers across America are the main 
audience for the majority of agricultural research. If we 
decide to proceed with any type of reorganization, then we must 
ensure that our farmers and ranchers continue to benefit from 
what is being done in agricultural research.
    Once again, Mr. Chairman, thank you for holding this 
hearing and I yield back.
    [The prepared statement of Mr. Lucas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, I thank the Ranking Member and the 
chair will recognize the Chairman of the Full Committee, Mr. 
Peterson.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. I thank the gentleman and I want to thank him 
for his leadership, and the Ranking Member, on this issue and 
others that they have been working so diligently on, and thank 
you for calling this hearing.
    It is not often in this business that people from all 
different sectors of agriculture ask us for the same thing, but 
as we heard from producers over and over again in the hearings 
around the country, a solid commitment to research is essential 
to their economic future. Research needed to increase 
competitiveness, enhance environmental stewardship and improve 
human health while sustaining the high quality of our food 
supply. As we begin to write the next farm bill, the most 
important thing to keep in mind is coordination. And with the 
budgetary restraints that we are currently facing, I am not 
interested in funding multiple projects with the same purpose. 
We need to ensure that our system fosters coordination and that 
everyone in the research community is working together to 
accomplish their goals and sharing the tools and the 
information that is needed to produce the best results.
    One of the topics that we heard most about is renewable 
energy. Research is already an essential part of the growing 
market for agriculturally-based fuels and I would like to find 
new ways to produce crops that yield more biofuels per acre and 
fund research that will take us to the next level of efficiency 
for biofuel production. We need research to help us expand 
production on herd feedstocks to ensure that the supply of corn 
meets the needs of all agricultural interests, and we need to 
continue to improve the methods for converting switchgrass and 
biomass, such as wood chips, switchgrass, warm season grasses 
in my part of the world, into cellulosic ethanol.
    I look forward to hearing today from the witnesses on how 
our research programs can continue to find new and improved 
ways to provide America with a safe and abundant supply of 
food, fiber and energy. And I thank the witnesses for being 
with us today.
    [The prepared statement of Messrs. Peterson, Goodlatte, 
Walz, and Kagen follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Well, I thank the Chairman. We would like to 
welcome our first panelist to the table today, Dr. Gale 
Buchanan, the Under Secretary for Research, Education and 
Economics for the United States Department of Agriculture. Dr. 
Buchanan, welcome and you may proceed when you wish.

 STATEMENT OF DR. GALE BUCHANAN, UNDER SECRETARY FOR RESEARCH, 
                 EDUCATION AND ECONOMICS, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Buchanan. Thank you very much, Chairman Holden, Ranking 
Member Lucas, and other distinguished Members of the Committee. 
It is really a great pleasure for me to have the opportunity to 
be here this morning to discuss the Department of Agriculture's 
Research, Education and Economics Program that is provided for 
in Title VII of the Administration's 2007 Farm Bill proposals.
    In my 40 plus years in agriculture research and 
administration, I have never seen such exciting times 
associated with such great opportunities in agriculture. We are 
experiencing a new paradigm in agriculture, one that we haven't 
seen before in our history. American agriculture is rapidly 
moving from a mission of producing food, feed and fiber to 
food, feed, fiber and fuel for energy for this Nation. To meet 
this challenge and exceedingly high expectations are parallel 
needs for research, education, and extension that are the 
responsibility of the research, education and economics mission 
area of the U.S. Department of Agriculture.
    Science has served as a vitally important foundation for 
our Nation's agricultural system, where there has been 
excellent success in the four agencies that I have 
responsibility for. We must continually improve on this strong 
foundation to maintain our global leadership in agriculture for 
the future. This is imperative if this Nation's agricultural 
system is to continue to be a world leader and respond 
effectively to the ever-evolving changes in consumer demands, 
increasing pest threats, changing world markets, and droughts 
and other natural factors. We must seize the opportunity to 
provide science-based solutions to these challenges.
    The Administration's Title VII of the 2007 Farm Bill 
proposal focuses on several targeted high-priority national 
needs. It also provides for an organizational structure to 
better position our programs to meet the needs of U.S. 
agriculture in the future. My written testimony describes all 
of the Administration's research title proposals. I will focus 
my oral remarks on reorganization, bioenergy and specialty 
crops.
    The organizational structure of our programs has served us 
well in the past. However, we have a responsibility to strive 
continuously to improve their efficiency and effectiveness, 
therefore we must make some changes to ensure our success in 
the future. We started this process of developing a new 
structure by first establishing the goals we wish to 
accomplish. We then did an assessment of our current 
organization, followed by developing principles to guide us in 
the development of a new organizational structure. The final 
step was to identify the desired outcomes of such a 
reorganization.
    Looking to the future, the Administration proposes to 
create the Research, Education, and Extension Service through 
the merger of the U.S. Department of Agriculture's Agricultural 
Research Service and the Department's Cooperative State 
Research, Education, and Extension Service. The new agency 
would be under the leadership of a chief scientist who would 
have overall responsibility for both intramural and extramural 
research and related programs. All current formula funding 
authorities, including those for Hatch, Smith-Lever, McIntire-
Stennis, 1890, 1994, Hispanic Serving Institutions, would be 
retained in their present form.
    Probably the greatest advantage of a merger of ARS and 
CSREES would be in having a single national program staff 
rather than two distinct, separate staffs as we have now for 
each agency. A single national program staff would greatly 
facilitate coordination and planning as well as enhanced 
stakeholder interaction with the Department. Combining the two 
national program staffs would also yield an enhanced degree of 
critical mass required to support program planning. A single 
national program staff would provide for better coordination 
and prioritization of research and linkage with extension and 
educational programs in agriculture. We are also proposing a 
name change for the mission area, from Research, Education and 
Economics to Office of Science. Such a name change better 
describes the foundation of our mission area.
    I would also like to touch on two major research 
initiatives included in the Administration's farm bill 
proposal, agricultural bioenergy and bio-products, and 
specialty crops. First, there is $50 million in annual 
mandatory spending proposed for the creation of the 
Agricultural Bioenergy and Bio-Based Products Research 
Initiative. This would enhance the production and conversion of 
biomass to renewable fuels and bio-products. This new 
initiative would focus research and development efforts on two 
objectives. The first is to improve biomass production and 
sustainability, and second, improving biomass conversion in 
biorefineries to products that would be useful in various 
energy needs for agriculture and society. Since the sun is our 
most reliable source of energy and agriculture's business is 
converting the sun's energy into things useful to man, it is 
quite clear to me that agriculture will and must play a vital 
role in our Nation achieving a greater degree of energy 
security.
    The Administration is also recommending the establishment 
of a Specialty Crops Research Initiative supported by $100 
million in annual mandatory funding. During the farm bill 
listening sessions, we repeatedly heard the call for an 
increased investment in research for specialty crops. Specialty 
crops represent a substantial and ever-increasing part of the 
total crop portfolio and play a critical role in providing a 
balanced, nutritional diet for all Americans. Some of the 
specific areas and issues to be addressed in this initiative 
would include genetics, genomics, breeding new cultivars and 
varieties, food safety and quality, production efficiency and 
mechanization, and the list goes on.
    Again, thank you for the opportunity to testify before the 
Committee regarding the USDA's farm bill proposals to 
strengthen our Nation's agricultural research, extension and 
education programs. I look forward to hearing your comments and 
responding to your questions as we discuss policy that will 
enhance American agriculture for the future. Thank you very 
much.
    [The prepared statement of Dr. Buchanan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, thank you, Dr. Buchanan, and thank you 
for your testimony and thank you for talking about your 
proposals for the farm bill on research reorganization. As you 
well know, the land-grant institutions also have proposed a 
reorganization of agricultural research and we are going to 
address and have some type of reorganization as we begin our 
process in writing the farm bill. But often, reorganization 
comes with unintended consequences, what safeguards would you 
recommend that we put in place so we avoid duplicate research 
and redundant research but at the same time, we make sure that 
we are doing all the research necessary, as you have mentioned, 
with specialty crops and energy feedstocks for the future? Is 
there anything specific we have to be careful that we don't end 
up with any unintended consequences?
    Dr. Buchanan. That is certainly a good question and 
obviously, having been in agriculture research and 
administration for over 40 years, this is an issue that 
concerns me, because the last thing I would like to see happen 
is changes that I propose not working in the end. So we are 
trying to exercise as much care as possible in ensuring that 
what we propose really will work, and we are trying to do that 
by including as many of our personnel in the agencies as 
possible. In fact, we have had a number of meetings with 
personnel, both in ARS as well as the universities. I have 
spoken to deans and I have spoken to directors. So we are 
trying to get a broad base of input to ensure that we don't 
have any unintended consequences. The proposals we have on the 
table will ensure that that doesn't happen, because you are 
absolutely right, we want to make sure that the changes we make 
are not just changes just for the sake of making changes. We 
want to make sure that the changes we make really accomplish 
the goals we set out with.
    The Chairman. Well, thank you, Doctor, and we look forward 
to working with you as we move towards marking up on this 
Subcommittee. During our energy financing hearing, Under 
Secretary Dorr mentioned the Executive Council on Energy. Do 
you participate in that Council?
    Dr. Buchanan. The Energy Council in the Department?
    The Chairman. Yes.
    Dr. Buchanan. Yes, sir, I do. In fact, we are now in the 
process of restructuring our whole energy program in the 
Department. In the mission area, in order to try to better 
understand what we are doing in energy, when I first became 
Under Secretary this past May a year ago, I set out to try to 
better understand what we were doing in bioenergy and bio-
products in the Department, not only in ARS but also supported 
by CSREES and the universities. And so we put together what we 
call the ABBREE Council, the Agricultural Bioenergy and 
Bioproducts Research, Education, and Extension within the 
mission area. We have entered into a cooperative agreement with 
an individual with whom we are working in partnership to 
provide REE leadership for this effort. Together we are working 
very hard to get a handle on what we are doing because, as one 
of the Members said earlier, it is important that we not leave 
any areas out, but it is just as important not to duplicate 
efforts. In order to do that, we are trying to better 
understand what we are doing now so we can plan for the most 
important need in our research agenda.
    The Chairman. Thank you, Doctor. The chair now recognizes 
the Ranking Member of the Subcommittee, Mr. Lucas.
    Mr. Lucas. Thank you, Chairman. And I would be remiss if I 
didn't note that this is a very special day for me. Thirteen 
years ago, I was elected in a special election to join this 
body and for almost half of that time, you and I have sat next 
to each other in this Subcommittee, which I appreciate, Mr. 
Chairman.
    Dr. Buchanan, tell me, why did you not include the Economic 
Research Service and the National Ag Statistics Service in your 
reorganization plan?
    Dr. Buchanan. Before we really put our ideas together in 
the early stages of the farm bill development, we considered a 
lot of options. The Economic Research Service is a Federal 
statistical agency. They certainly have a research mission, but 
they also have a lot of other missions as well. Also, we 
considered the possibility of splitting that agency up into two 
or three different parts and portioning out different areas 
within the Department. But the more we thought about it the 
more we realized that it probably could work most effectively 
by being a separate, stand-alone agency as it is now. And so 
for that reason, we really didn't think that it would be 
appropriate to include it. Now, the research part of ERS would 
work very nicely, but the other parts of the agency's 
responsibility really are not research. They are more 
analytical and more supportive of other parts of the 
Department. So we just felt like it would be best not to 
include them. NASS, of course, has a quite different mission 
than research and education, so we felt it best to leave it as 
a separate agency.
    Mr. Lucas. And I guess I would be remiss if I didn't ask 
the same question about the Forest Service research, too, just 
for----
    Dr. Buchanan. Well, that is a little bit different 
question, in that forest research is part of another Under 
Secretary's mission area. It receives funding from a different 
appropriation subcommittee in Congress. It looks like it would 
be a little bit more difficult to embrace that. Now, we do have 
some forest research embedded in the CSREES program through the 
McIntire-Stennis authorization, but it just didn't look like 
these other two agencies would fit as well as ARS and CSREES, 
because these two agencies have very similar missions in terms 
of research.
    Mr. Lucas. If your proposal is adopted, Doctor, how many 
dollars are we talking about? What kind of budget resources are 
allocated to those two entities and ultimately, if the proposal 
is adopted, how big would the budget be for the final entity?
    Dr. Buchanan. Well, first, we don't anticipate major 
funding needs to make this happen, because the primary people 
who would be affected are those here in Washington, the 
national program staff. There would be some relocations within 
our organization. But as far as major costs associated, we 
don't anticipate any major costs associated with the 
reorganization, because we don't plan to make any changes 
within the ARS areas. Certainly all of the eight areas in ARS 
would remain intact. We just don't anticipate any major costs 
associated, other than very minor costs.
    Mr. Lucas. So along those lines, while we are talking about 
that kind of thing, you mentioned for a moment--good electronic 
equipment, yes, sir, Mr. Chairman, trying to get my attention, 
I thought there for a moment. Talk to me for a moment about the 
role of what I would describe as the legacy personnel at those 
two agencies in a new agency. We have in this Committee, over 
the course of the last 13 years, gone through lots of 
reorganization efforts and rearrangements and realignments and 
it produces some challenges for the good folks who work at the 
Department when you do that kind of thing. I am sure you have 
given thought to that, how this would impact people who have 
worked a career or most of a career in the present structure.
    Dr. Buchanan. Yes, sir, and let me finish answering a 
previous question.
    Mr. Lucas. Of course.
    Dr. Buchanan. The combined agencies would end up being 
REES, the Research, Education, and Extension Service. The 
combined agency would have approximately $2 billion of support 
for research and education programs, and we are not proposing 
changing the balance of intramural versus extramural. That is a 
very important point that a lot of our internal people have 
asked. Are we going to move more funding into ARS and less into 
CSREES? The plan is not to make any change in the balance 
between those two. Your next question, Congressman----
    Mr. Lucas. And the reason I asked that is that there has 
been a tendency sometimes in reorganizations, that the bulk of 
the reorganization happens out in the field where things are 
happening and it doesn't always seem like there is a lot of 
reorganization among the various staff components here at the 
headquarters.
    Dr. Buchanan. You really asked a question I am delighted to 
respond to.
    Mr. Lucas. Thank you.
    Dr. Buchanan. We don't propose to change anything out in 
the field. I can't imagine any scientist or staff member out in 
the countryside having any affect whatsoever, other than we 
will do better planning in Washington. The combining or merging 
of the two national program staffs will involve trying to 
create a more effective organization here in Washington to 
support all of those people out in the countryside that are 
doing research and education programs. So I think this is just 
the opposite of affecting the people in the field and not 
affecting people in town. I am looking at trying to make things 
in Washington certainly more efficient in terms of how we do 
business here in town.
    The executive group is also looking at this other question 
you raised. We have had several meetings with various personnel 
in our organization. One of the first things I did after the 
farm bill information was released was have a conference call 
with all ARS employees around the country. We invited every 
employee to participate in the conference call, if you can 
believe that. And anyway, we had a number of questions that 
came up and I invited everybody to write and send me their 
ideas and suggestions. The most common question that came up 
was how do we protect the brand name of ARS? It is an important 
brand name, as you have already alluded to. I don't know 
exactly how we are going to address that issue, but it is one 
thing I have given the executive group that is planning the 
implementation to try to come up with. How do we protect the 
brand name of ARS, because that is important.
    Mr. Lucas. Thank you, Mr. Secretary. My time has expired. I 
yield back, Mr. Chairman.
    The Chairman. The chair thanks the Ranking Member and 
recognizes the Chairman of the full Committee, Mr. Peterson.
    Mr. Peterson. I thank the gentleman. Dr. Buchanan, this 
Agricultural Bioenergy and Bio-Based Research Initiative, why 
are you asking for mandatory money, just so you have a 
certainty of it? Is that what the reason is?
    Dr. Buchanan. Well, this was a decision to ensure that we 
have resources that would be in support of what we consider one 
of the most----
    Mr. Peterson. Can you assure us that the appropriators are 
not going to use the chimps on us, because when we have done 
mandatory spending before, they have just eliminated it and 
spent the money some other place. We are trying to get this 
resolved in the budget situation, but I am not sure if that is 
going to happen, and we don't have money to be putting out 
there in the mandatory baseline if the appropriators are going 
to take it away. So have you thought about that at all?
    Dr. Buchanan. Yes, sir, we have and obviously, we are 
hopeful and encouraged because this is such an important 
national priority. We are encouraged that this will be new 
money to help us to enhance the programs we already have, so 
this is clearly one of the issues that I think is important.
    Mr. Peterson. Well, if it is that big of a priority, they 
may fund it anyway over there, but we can have that other 
discussion. I guess the other thing is I read over what you 
said here in your testimony; it is somewhat general. One of the 
things; I have been all over the country; everybody in the 
country wants to be the renewable energy research center. They 
all have got big plans and there are people out there that I 
have run into that are researching the same thing but have 
never talked to each other. Have you got this fleshed out in 
terms of how this $50 million would be spent? How far are you 
into the weeds in terms of actually knowing how you are going 
to spend that?
    Dr. Buchanan. As I mentioned just a few minutes ago, one of 
the things that I realized when I first came into the position 
of Under Secretary was that the whole area of bioenergy was one 
of the really critical areas we were facing. I started looking 
around to see what we were doing. I was having great difficulty 
in finding out what we are doing, not only in-house in ARS, but 
also in all of the universities, because you are absolutely 
right, many universities have various types of energy programs. 
So that is why we have a cooperative agreement with a person to 
work with us in this area and together gain a better 
understanding of what we are doing now. That is what we are in 
the process of doing. In fact, we are planning a workshop that 
will bring together a number of university scientists from 
around the country, and our own organization. In September, we 
will have a conference to outline where we are. That will be 
the first step in identifying where we need to go next. And 
while I have heard some say that there are too many other 
universities getting into the act, I take just the opposite 
approach. I would like to see every university getting involved 
in energy, because I see this as truly one of the major grand 
challenges of our society of the future, achieving energy 
security.
    Mr. Peterson. Yes, we don't disagree on that. So you are 
telling me that you are not going to really know until 
September?
    Dr. Buchanan. Sorry?
    Mr. Peterson. You are not going to really know until 
September how you are going to go ahead with this?
    Dr. Buchanan. We are still working on that and I don't want 
to count my chickens until the eggs hatch, but we certainly are 
working on that and we will have a good idea by the time the 
new fiscal year rolls around.
    Mr. Peterson. Well, I would just say to you that we are 
going to start marking up the week after next and we are 
probably not going to expect you to be able to give us details. 
I will tell you something; we are not going to be putting 
mandatory money in unless we understand how it is going to be 
spent. We are going to have to move up that timeframe if we are 
going to do this and we will have some more discussions.
    Dr. Buchanan. I could certainly be ready. Whenever you ask 
me to, we will be ready, sir.
    Mr. Peterson. All right. Thank you. Thank you.
    The Chairman. The chair thanks the Chairman and recognizes 
Mr. Fortenberry from Nebraska.
    Mr. Fortenberry. Thank you, Mr. Chairman. Just following up 
on Chairman Peterson's comments. We met recently with Secretary 
Dorr and the Under Secretary of the Department of Energy, 
asking for a matrix that gets to that very point. Who is doing 
what and where in regards to alternative energy programs? And I 
expected the answer to be, ``We will get that to you shortly.'' 
But apparently this is so complicated and so many agencies and 
entities are involved, both through the university system as 
well as in our own direct Federal programs, that it is 
complicated. Mr. Costa and I wrote a letter recently, which 
Chairman Holden endorsed, asking for that shortly, so that may 
be a part the answer to our need here. But I appreciate you 
appearing today and the question I have is related to this 
point. There are three emerging trends in agriculture that are 
going to shape the future of farm policy for years to come. You 
clearly pointed out it is ag-based energy production, but also 
agricultural entrepreneurship and a new vision for conservation 
and good land stewardship. In your proposal, can you point 
specifically how those outcomes will be achieved by this 
potential merger of the two organizations? And then I have a 
follow-up question for you.
    Dr. Buchanan. Clearly the merger would provide for the 
consolidation of the national program staffs of the two 
agencies. The real advantage there is it would provide the 
basis for a better coordination and planning effort by having a 
single program staff that is aware of what we are doing 
internally in our intramural research effort at ARS, as well as 
what is going on and supported by CSREES through the 
universities. We have some hundred Agriculture Research Service 
(ARS) laboratories around the country. There are also some 
hundred universities of various types around the country. So we 
have a tremendously large number of institutions engaged in 
various aspects of research. Trying to find out what each 
person at each institution is doing is a real challenge and 
that is one of the things that a national program staff would 
have the ability to get a better understanding of. They would 
know what each institution is doing or what each side of the 
house is doing. Right now we have two stovepipes. We have the 
Cooperative State Research, Education, and Extension Service 
and the universities and we have the Agricultural Research 
Service. So what we are looking at is trying to have a single 
group that is looking at all of our programs. That gets back to 
what was mentioned a moment ago about coordination and this 
would assist in helping that effort.
    Mr. Fortenberry. Is there a way to envision merging the 
program staffs without merging the two agencies?
    Dr. Buchanan. Well, that is obviously something that we 
could give thought to. There would be some advantage of merging 
the agencies that I think would be helpful, but you know, we 
will do whatever we have to do.
    Mr. Fortenberry. Sure. Well, again, I urge you to think 
about, as we are considering reorganization or restructuring, 
obviously, we keep an eye on the objectives and that is 
efficiency, saving money, avoiding duplication. But the bigger 
objective is to really help promote emerging trends that are 
extraordinarily beneficial for America's energy policy, for 
American farmers, and that is ag-based energy production. 
Second, again, the emerging trends toward agricultural 
entrepreneurship, rethinking traditional commodities production 
and more specialty types of production that can enhance farm 
income and deliver local foods locally. And third is 
conservation practices that would be consistent with good land 
stewardship. If we keep an eye on those goals as we think about 
reorganization, I think we can do something very strong and 
positive for the future of farm policy. Thank you for your 
appearance, sir.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Georgia, Mr. Scott. Maybe turn your mike on.
    Mr. Scott.--sort of the landscape and then put a few 
suggestions and get your reactions to it. One of my greatest 
concerns has been and will continue to be the lack of equity 
and funding between 1862 land-grant institutions and the 1890 
land-grant institutions. These schools continue to be 
overshadowed by their larger brethren, in terms of funding, 
while, quite frankly, many of these schools have done more with 
less since their funding in the late 19th Century. Indeed, the 
bias against these schools, whether intentional or not, is even 
more apparent in the witness list for this hearing. There is 
not one 1890 land-grant school represented here today, and many 
of these schools serve the African-American underrepresented 
population.
    In addition to major improvements of facilities and 
equipment, the 1890s need a substantial influx of funding to 
broaden their research and teaching capabilities. This can best 
be achieved through expansion of the 1890's Capacity Building 
Program, such as a GAO study noted in 2003. Research in this 
program focuses on biotechnology, nutrition, aquaculture, and 
plant and animal science, included in teaching projects or 
agribusiness management, marketing, regulatory science. Since 
the Capacity Building Program began in Fiscal Year 1990, 
funding has remained far below the authorized level, thereby 
dramatically limiting the number of research and teaching 
grants that could otherwise have been awarded.
    And I just have a few suggestions that I would like to make 
to improve this situation and get your response to: (1) raise 
the minimum authorization level of Evans-Allen, for 1890s 
research, from 25 percent of the funds to 30 percent of the 
funds appropriated in the Hatch Act; (2) raise the minimum 
authorization levels of the 1890 extension from 15 percent to 
20 percent of funds appropriated under the Smith-Lever Act; and 
(3) extend the authorization of the 1890 facilities capacity 
building through 2012, change the authorization language in the 
McIntire-Stennis Cooperative Forestry Act to include 1890s as 
eligible institutions to receive the funding. And finally, 
change the authorization language in the Animal Health Research 
and Disease Program to specify that funds are to be awarded to 
state agriculture experiment institutions and 1890 
institutions.
    So Dr. Buchanan, what I am asking is, what is the USDA 
doing now to rectify this situation with the 1890 institutions, 
and can you please comment on the proposals that I have 
recommended?
    Dr. Buchanan. Well, first let me say I am very familiar 
with the 1890 institutions having served in 1862 universities 
in two different states where we had 1890 institutions, and I 
am aware of some of the exciting and excellent research and the 
programs that we have at 1890s. We do have programs in CSREES 
that are directly in support of the 1890 institutions, the 
capacity building programs, and I can't recall the others, but 
we certainly have programs that are in direct support of the 
1890 institutions. I would say that many of the funding 
opportunities that are provided through CSREES are open and are 
available, not only to 1862s, but to 1890s as well as other 
institutions, and so the 1890s participate in those programs as 
well. So we do have a range of opportunities for 1890 
institutions to participate in our research and education 
programs through the Department.
    Mr. Scott. You do agree and recognize the inequity in the 
situation, do you now?
    Dr. Buchanan. There is wide variation in funding among all 
institutions.
    Mr. Scott. But I need you to say yes or no, because if you 
don't yourself recognize that there is an unequal funding with 
these land-grant 1890s, predominantly African-American 
colleges, as opposed to the others, then we have a discussion 
here in vain.
    Dr. Buchanan. Well, Congressman, I would say that, while 
there is still some difference between funding, the gap is 
closing in that 1890s support has increased at a faster pace 
than has 1862s. So I think the outlook is positive and I just 
think that the other funding mechanisms, including the 
Competitive Grant Program through the NRI and others, provide 
options for 1890s just as much as it does 1862s.
    Mr. Scott. So am I to understand that you do agree, then, 
that there is a problem of unequal funding?
    Dr. Buchanan. Yes, sir, there is unequal funding among all 
institutions.
    Mr. Scott. No, no, no.
    Dr. Buchanan. In fact, the Hatch formula provides quite a 
range of different funding for different institutions.
    Mr. Scott. We have a problem with these African-American 
1890-predominant land-grant schools not receiving their fair 
share, correct?
    Dr. Buchanan. You are probably correct, sir.
    Mr. Scott. Okay, thank you, sir.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentlewoman from Ohio, Mrs. Schmidt. Okay, the gentlewoman 
passes. And Mr. Moran? The chair recognizes Mr. Bonner.
    Mr. Bonner. I don't have any questions. Thank you.
    The Chairman. Okay, the gentleman passes. The chair would 
now recognize Mr. Kagen, sticking to time of arrival.
    Mr. Kagen. It looks like I am moving up in the world. Thank 
you, Mr. Chairman. I want to thank you for your testimony. 
Gale, thank you for your testimony and your service to the 
country. It is a complicated job that you have. I am a small 
businessman and I manage 14 employees and you have got a few 
more underlings, so congratulations on your hard work. I was 
looking at your suggestions about putting $50 million into the 
bioenergy and bio-based ag products. I wonder if there was a 
typo because you put $100 million into specialty crops. Is 
there a typo there? Did you favor specialty crops more so than 
the bioenergy?
    Dr. Buchanan. I wouldn't say that, sir. In fact, I would 
say that these are two among my highest priorities. Not only 
that, the NAREEE board, which is the advisory board to the 
Secretary and I on this area of research, have identified both 
of these as very high priorities. When the Secretary had the 
hearings around the country prior to the development of the 
farm bill initiatives, one of the issues that came up 
repeatedly was the importance of energy security, as well as 
the importance of the specialty crops. So I think both of these 
are important. One thing that I would say that might clarify 
this a little bit is that bioenergy is a very specific area. 
Specialty crops includes many, many, many different crops, as 
you can imagine. And so the commitment to the specialty crops 
is already pretty substantial in the Department, but this would 
be a real boost and a real shot in the arm to enhance support 
in this area. So there is a little bit of a different way of 
looking at those two areas: one is very specific and one is 
much broader.
    Mr. Kagen. Do you know of any farms that now produce more 
energy than they consume?
    Dr. Buchanan. Would you say that again?
    Mr. Kagen. Do you know of any farms that are independent, 
off the grid, that they produce more energy than they consume, 
that they are donating back energy?
    Dr. Buchanan. Personally, I don't know of any but I do know 
that if you go back 100 years, every farm in America was energy 
independent because they raised the corn and fodder to feed the 
mules and horses. They used wind to pump water and they used 
wood to dry and warm by. This lets me get back to amplify a 
point I made earlier. While we don't have specific research 
projects identified we would do, if we get this funding in the 
proposed farm bill, we certainly have identified the general 
areas that we have already identified and we are fleshing that 
out. But clearly, we looked at enhancing biomass production, 
not only how to produce biomass sustainably, but how to 
accumulate it and process it and get it ready so you can use it 
in a bioenergy system. Also, we are looking at the best ways to 
convert biomass, whether it is hydrolysis or whether it is 
enzymatic or whatever. So there are a whole range of issues 
there that we are looking at, but this is a real challenge.
    Mr. Kagen. It is a challenge and I love research. I had a 
research laboratory for 25 years. But one of the things about 
research is you have to come up with results and that is how we 
are going to measure your success, is the results. That is why 
I wanted to know how many farms are now off the grid and are 
energy independent, much like they used to be. And I would like 
to ask you this question. Would you join with me in working 
with two of my farms in northeast Wisconsin and help them get 
energy independent and off the grid? Would you be willing to 
work with me on that?
    Dr. Buchanan. Certainly.
    Mr. Kagen. Take a large farm, a milk herd of 2,000, a small 
family farm of 120 and help them to become totally energy 
independent?
    Dr. Buchanan. Yes, sir.
    Mr. Kagen. Thank you.
    Dr. Buchanan. Obviously that would be a challenge.
    Mr. Kagen. It would be a challenge well worth winning and I 
look forward to those results, because that is how we measure 
things in Wisconsin. Thank you.
    Dr. Buchanan. We think agriculture not only has a challenge 
in producing energy, but how do we become energy independent on 
the farm? You really touched a very sensitive nerve with me.
    Mr. Kagen. Well, that is my goal, because when I traveled 
around northeast Wisconsin, the 8th District that I represent, 
there were only two things on their mind: their high energy 
costs and their healthcare costs. So if I can help eliminate 
their energy costs, I can help them become more profitable and 
at the same time I am working to knock down their healthcare 
costs. But thank you again, and I yield back my time.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentlewoman from South Dakota, Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman, and thank 
you, Dr. Buchanan, for your testimony today. I do have a 
question in response to Chairman Peterson's question earlier, 
with regard to the requested amounts for bioenergy. You said 
that the agency had contracted with a person to get a handle on 
where we are now and that there was going to be a September 
conference to outline where we are where we should go. Who is 
that your office has contracted with?
    Dr. Buchanan. This is an internal review that we would be 
inviting various directors of laboratories and scientists 
involved in our bioenergy effort and they would be helping us 
identify their specific research effort. We have identified the 
general principles that we want to address, as I mentioned 
earlier.
    Ms. Herseth Sandlin. Dr. Buchanan, if I might? I am sorry 
to interrupt, but who is it? You said you had contracted with a 
person. Do you mean you contracted----
    Dr. Buchanan. A person named Dr. Jim Fischer.
    Ms. Herseth Sandlin. And he is outside the agency?
    Dr. Buchanan. Yes, he is outside the agency.
    Ms. Herseth Sandlin. And so can you tell me a little bit 
about him and then also answer the question of the $50 million 
that you are requesting? Would you then use some of that money 
to then set up a national program staff within the agency? You 
are not going to use that money to contract out to someone to 
coordinate this information?
    Dr. Buchanan. No, no, we would simply use the existing 
authorities that we have to conduct the research internally. We 
are talking about funding research both in ARS, in Agricultural 
Research Service, in the universities, through the Cooperative 
State Research, Education, and Extension Service (CSREES). The 
person that I have employed to help me is on a cooperative 
agreement. I employed him because of his broad knowledge. He is 
a former employee of ARS, a former employee of Clemson 
University in South Carolina and also is a former employee of 
DOE. He is a very knowledgeable person who has expertise far 
beyond what I have. So that is why we are working with Dr. 
Fischer through a cooperative agreement. But no, the research 
would be managed in-house. This is what we are talking about.
    Ms. Herseth Sandlin. No, I anticipated that the research 
would always be done in-house, but in terms of the ongoing 
coordination efforts of understanding what is happening out 
within the universities the intramural, the extramural 
activities, what is going on with the research so that we 
aren't looking at duplication? Do you anticipate that after 
September, after this individual has done the initial stages of 
identifying what is out there and bringing it together, going 
forward, that you would have a dedicated staff within your 
office that would do ongoing information gathering and 
analysis; sharing that information within the office itself 
rather than on an ongoing contractual basis with someone 
outside of the office.
    Dr. Buchanan. Well, I made the point earlier that we have 
put together the ABBREE Council within the mission area, which 
has representatives from ARS, CSREES, NASS and ERS. They 
provide kind of a coordinating group within the mission area 
and Dr. Fisher simply provides more help to the ABBREE Council 
in the coordination effort within the mission area, so we are 
getting a handle on what we are doing. One of the most 
important steps in the research process is identifying what 
needs to be addressed and this is exactly what we are doing. We 
are identifying what needs to be addressed and the only way you 
can do that is to systematically assess what you are currently 
doing.
    Ms. Herseth Sandlin. I appreciate that and I appreciate the 
efforts that you have undertaken. I would just perhaps share my 
preference that the ongoing efforts to gather that information 
would be done within the office rather than continuing on a 
contractual basis. I am just stating that. I understand what 
you are doing now to add to those efforts, but any kind of 
reorganization that takes place to have a dedicated staff to 
keep a handle, then, to add on to this set of information that 
you are gathering. One other quick question: What are your 
thoughts as this Office of Science and the reorganization that 
is being proposed and the responsibilities of the Research, 
Education, and Economics agency is now becoming an Office of 
Science. We have done a very good job over the years, through 
the extension service, sharing research and education with 
those who are actively farming, and different techniques and 
different areas of research that have helped productivity 
growth. What are your thoughts on how your mission might 
currently address, or could in the future, the issue of 
entrepreneurs in rural America and technology transfer. I know 
that is an area that many leaders in the land-grant university 
system have focused on as they have pursued research, so that 
it is shared information and knowledge and facilitating 
efforts, not only to our farmers and ranchers, but also to our 
rural entrepreneurs.
    Dr. Buchanan. I am not sure I got the question. Would you 
give me a capsule of your question again?
    Ms. Herseth Sandlin. Do you currently, or do you see in the 
future, a rule for your office in assisting the efforts of 
rural entrepreneurs through technology transfer of the research 
conducted through Federal grants at land-grant universities?
    Dr. Buchanan. Well, clearly the Cooperative Extension 
Service has a very vital role to play in that process and under 
the reorganization, I think we will have an even better linkage 
between the total research capacity in USDA than we have now. 
At the present time, extension is part of Cooperative State 
Research, Education, and Extension Service. We have a lot of ad 
hoc coordination, but the reorganization will institutionalize 
this process, so I think we will have an even better 
opportunity for information transfer from the total research 
system in USDA after the reorganization.
    Ms. Herseth Sandlin. Thank you and thank you for allowing 
me to go over time, Mr. Chairman.
    The Chairman. The chair thanks the gentlewoman and 
recognizes the gentlewoman from New York, Mrs. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman. Thank you, 
Doctor, for appearing today. I appreciate your testimony very 
much. I am looking at your recommendations of how to reorganize 
and the funding mechanisms and the President has proposed $50 
million for the bioenergy and bio-based products research. Do 
you think that amount is going to be sufficient for the level 
of research that is really going to be required to have the 
President's 2020 Initiative achieved?
    Dr. Buchanan. Well, first, I should point out that the 
total farm bill has a number of other areas that provide 
funding. In fact, there is a total of $1.6 billion in the total 
farm bill package for bioenergy and bio-products. The part that 
is in the Title VII, which is in the research title, is $50 
million and this certainly would provide a real boost, a real 
shot in the arm, if you will, for support of research and 
education programs in the agencies that I have responsibility 
for. So we are very pleased at that figure and that would 
certainly be a great boost to our effort.
    Mrs. Gillibrand. And what is going to be the focus of your 
research, figuring out how to use biofuels cost efficiently or 
figuring out which materials make the best biofuels? Are you 
looking at waste products that are on farms, like cow manure?
    Dr. Buchanan. Well, obviously one of the real opportunities 
for agriculture is, as I pointed earlier, the sun is our only 
real ultimate source of energy. Capturing the sun's energy can 
be done by a couple of ways, such as photovoltaic cells, but 
the most important and efficient way of capturing the sun's 
energy is through green plant photosynthesis. Green plant 
photosynthesis is the heart of agriculture, so agriculture, as 
I mentioned earlier, is going to be at the heart of addressing 
the energy picture. So clearly the first challenge we have is 
what are the best energy crops that we can grow? And of course 
that takes many, many different approaches, for example, using 
not only what we have now, but also through screening our 
germplasm banks. We have 470,000 assession of plants in our 
germ banks around the country. Many of those have not been 
screened for energy properties. They have been collected and 
primarily screened for food and fiber properties. But we need 
to be looking at all of these assessions for their energy 
properties. We have been selecting plants for 7,000 years, 
since we stopped being hunters and gatherers. We really need to 
be looking at how we can breed and select plants, not only on 
the basis of food or fiber, but also on the basis of energy.
    Mrs. Gillibrand. Right. And I have read for cellulosic 
ethanol, some of the best plants we have discovered are 
switchgrasses and perhaps woody biomass that is not used in 
papermaking process and other things like that. In terms of the 
timeframe for this I have a concern because I have a lot of 
dairy farms in my district, and right now the cost of grain has 
doubled because of the corn prices being used for ethanol. So 
my concern is how long will this take and will you be able to 
begin to facilitate the transfer away from corn-based ethanol 
towards perhaps cellulosic-based ethanol that has a greater 
energy return rate? And I think the difference is it is 2 to 1 
for corn and maybe 10 to 1 for these other types of crops.
    Dr. Buchanan. Well, first, I will give you a researcher's 
perspective. I can't tell you when because if I could tell you 
when, then it wouldn't be research. So the one thing I can say 
is the more research we do, the harder we work, the quicker we 
will achieve what we want to achieve. I would also say that 
this is clearly an issue that has come up. We are very much 
aware of the problem with the other uses, because we not only 
have a responsibility for energy, I made the comment earlier 
about, we now have the responsibility for food, feed, fiber and 
fuel, but just because we have a need for a fuel does not 
negate the need for food, feed and fiber.
    Mrs. Gillibrand. Yes.
    Dr. Buchanan. And I heard a speech at the American Chemical 
Society meeting a few weeks ago, talking about there not being 
as much competition between food versus fuel as there is 
between feed versus fuel.
    Mrs. Gillibrand. Right.
    Dr. Buchanan. And that is a very important point. In fact, 
we are working and we had a group of our staff working to try 
to understand what we are doing in research to address this 
issue. It has taken several different approaches. For example, 
how do we make ethanol out of corn and ensure that the 
resulting DDGS meet the expectations for good quality animal 
feed? And of course, someone pointed out that we are looking at 
trying to find an efficient means of converting cellulosic 
material into ethanol. So we are looking at other ways. What 
are the other crops that we can grow that will replace feed? 
For example, in poultry we can use grain millets, which have 
equal capacity for satisfying poultry needs. So we are looking 
at a lot of different approaches. This is not a simple issue 
and I think that anyone that can predict when we are going to 
achieve this, I would like to meet them, because there is a lot 
of research that has to be done. We have a lot of effort ahead 
of us in order to achieve this goal. This is why I refer to 
this whole business as one of the grand challenges of this 
century.
    Mrs. Gillibrand. That is why I started my question with, is 
$50 million enough?
    Dr. Buchanan. Well, it is certainly a major start and I am 
delighted to support this and this will get us going down the 
road, so I hope that we are successful in getting the funding.
    Mrs. Gillibrand. Thank you.
    The Chairman. The chair thanks the gentlewoman and 
recognizes the gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. I do 
appreciate us continuing to follow through on this hearing. I 
have a couple different questions and part of it is a follow-
through of our continuing theme that has been going with my 
colleagues and that is trying to get a handle on this research 
that is being done, as both of my last two colleagues 
indicated. We are not trying to give you a difficult time, Mr. 
Secretary, but the fact of the matter is that research has been 
going on for some time and we know that the reason that we are 
asking about what the Department has done to develop criteria 
is that they have allowed these research grants to be issued, 
and because we don't want to waste the taxpayers' dollars. We 
want to put the research, frankly, into where there already is 
a great degree of work and research that already has been done, 
so that we bring added-value and also have timelines in terms 
of, to use and agricultural term, where the lowest hanging 
fruit is in terms of asserting agriculture's role, we think a 
role that will grow in reducing our dependency on foreign 
sources of energy. To that extent, have you and the Department 
of Energy better coordinated your biofuels research effort 
through this bioresearch development initiative, and do you 
participate on that advisory council initiative?
    Dr. Buchanan. Well, in the past, I have not been a member 
of the joint council, but plans are to include me as a member 
of that council. But clearly one of the Under Secretaries in 
the Department is a co-chair of that council, which provides 
coordination with DOE, and obviously there is plenty of work 
for everybody to do and we are committed to doing that.
    Mr. Costa. Well, it is not the work, it is the 
collaboration so that we are not reinventing the wheel, so to 
speak, and that we are not duplicating efforts is the concern I 
think most of the Committee Members here have, and I share 
those concerns. We understand that this effort in terms of the 
joint awards to fund biomass research and development projects. 
Does this group, in your knowledge, have an oversight capacity? 
Do you monitor the way the funding is being distributed from 
your respective agencies under the grant awards, like the 
CSREES, to make sure that we aren't, as I said, duplicating 
efforts?
    Dr. Buchanan. Well, certainly the agencies and CSREES, and 
the grant process through the NRI, has oversight in terms of 
ensuring that we don't fund the same projects in two different 
states by two different investigators. The national program 
staffs have opportunity for knowing what is going on, so we 
have a way of ensuring that we don't reinvent the wheel. But I 
would submit, too, and I have been in research all of my life, 
that the allegation that we duplicate a lot of work is not--it 
just doesn't happen too much. A lot of times we do similar 
research, but often times it is needed to ensure that we answer 
the right questions and it is location specific. So this is not 
a major concern of mine, duplicating or reinventing the wheel.
    Mr. Costa. As laypeople, some of us have an understanding 
that peer research involves validation that involves a lot of 
that kind of work, but it is my fear, and hopefully it is 
baseless, but I don't think so. We understand that we have some 
tremendous universities throughout this country that are doing 
great research, but we also know that some universities by 
nature, because of funding challenges, are very adept at 
chasing those research dollars. I don't think it is the 
universities' responsibility to police themselves. Some of them 
do collaborative efforts that I am aware of, but I think we 
need to, if you are issuing the grants, the Department of 
Energy is issuing the grants, there needs to be a high level of 
collaboration to ensure that in fact we are getting the best 
bang for our dollar.
    Dr. Buchanan. Well, one of the things that we are doing is 
we have a joint effort between CSREES and DOE, in which we have 
jointly funded research efforts, and this is another way of 
ensuring that we don't fund the same project, by having joint 
efforts between DOE and CSREES and the Department. I understand 
what you are saying, Congressman, and clearly, we have too many 
things to do to not use our money as wisely as we can. That is 
obviously one of the real important parts of the proposed 
reorganization, is to have a single national program staff that 
has purview and is aware of what we are doing both 
intramurally, as well as extramurally. So that is another way 
of trying to address exactly what you are saying.
    Mr. Costa. Thank you very much. I have exceeded my time. 
Thank you, Mr. Chairman, for this effort.
    The Chairman. The chair thanks the gentleman and also, 
thanks, Dr. Buchanan, for your testimony and for your Q&A 
session that we had here today. And there is a series of votes 
going on now, and Dr. Buchanan, it seems like there are no 
other questions for you at this time, so we thank you again and 
dismiss you from appearing before the Subcommittee.
    Dr. Buchanan. Mr. Chairman, thank you very much for the 
opportunity and we stand ready to provide any information, and 
if you should have questions about our plans for use of the 
dollars in specialty crops and energy, we would be pleased to 
provide any information you ask for.
    The Chairman. Well, we appreciate that, Doctor, and as the 
Chairman of the full Committee indicated, this Subcommittee 
intends to begin marking up on May 22, so we will be in touch 
and we will say to Panel II, that it will be about probably a 
half hour until we return from the series of votes, so we will 
back as soon as we can. Thank you.
    Dr. Buchanan. Thank you very much.
    [Recess]
    The Chairman. The Committee will come back to order and Mr. 
Lucas and I would like to apologize to our witnesses, but we 
talked about unintended consequences with the last panel and we 
just ran into one. So we would just like to welcome our second 
panel, Dr. William Danforth, Chancellor Emeritus of Washington 
University, Chairman of the Coalition of Plant and Life 
Sciences, and Chairman of the Donald Danforth Plant Science 
Center, St. Louis, Missouri; Dr. Bruce McPheron, Associate Dean 
for Research and Director of Pennsylvania Agricultural 
Experiment Station, Penn State University, on behalf of the 
National Association of State Universities and Land-Grant 
Colleges, from University Park, Pennsylvania; Dr. George W. 
Norton, Professor of Agricultural and Applied Economics, 
College of Agriculture and Life Sciences, from Virginia Tech in 
Blacksburg, Virginia. And Dr. Norton, Mr. Lucas and I would 
like to express our deepest sympathy for the tragic events that 
happened at Virginia Tech. And finally, Dr. Joe Bouton, Senior 
Vice President and Director of Forage Improvement Division, The 
Samuel Roberts Noble Foundation, and Professor Emeritus, 
University of Georgia, Ardmore, Oklahoma. Dr. Danforth, you may 
begin when you are ready.

 STATEMENT OF WILLIAM H. DANFORTH, M.D., CHANCELLOR EMERITUS, 
WASHINGTON UNIVERSITY; CHAIRMAN, DONALD DANFORTH PLANT SCIENCE 
                       CENTER; CHAIRMAN,
      COALITION OF PLANT AND LIFE SCIENCES, ST. LOUIS, MO

    Dr. Danforth. Chairman Holden, Ranking Member Lucas and 
Members, I thank you for this opportunity. I have been involved 
with biomedical research for over 50 years and plant science 
for a dozen. Thanks to leaders in Congress, I chaired a task 
force to evaluate the establishment of one or more national 
institutes for agricultural science. I ask that this report be 
included in today's record and I have a brought a copy of it.*
---------------------------------------------------------------------------
    * The report entitled, National Institute for Food and 
Agriculture--A Proposal; dated July 2004; a report of the Research, 
Education and Economics Task Force of the United States Department of 
Agriculture; follows Dr. Holden's prepared statement.
---------------------------------------------------------------------------
    The National Institute for Food and Agriculture Act 
introduced last Wednesday by Chairman Peterson and Members of 
the Committee, including Representatives Graves, Marshall and 
Boustany, embodied our recommendations. In March, Chairman 
Harkin, Senator Bond and others introduced the same Act in the 
Senate. I would like to just summarize a couple of our 
conclusions and recommendations.
    First, innovations from research have been and are today 
essential to agriculture. They have given us food and fiber 
that are plentiful, cheap, safe and contributed to foreign 
sales. Innovation must continue, for we face serious challenges 
that have been mentioned and outlined today, including 
international competition for farm products, the need for 
bioenergy, growing water shortages, human nutrition, food 
safety and so on.
    Second conclusion, that many of the next generations of 
breakthrough innovations will come from fundamental research, 
that is research that develops a better understanding of how 
animals and plants grow, develop, use nutrients, protect 
themselves from drought and diseases and so on. Fortunately, we 
have new and powerful tools, such as cell and molecular 
biology, genetics, proteomics and so on, that would be useful 
to agriculture as they have been to understanding human 
cancers.
    Two key recommendations are not new: Scientific panels have 
advocated them for over 30 years. First, decision making about 
fundamental research must lean more heavily on scientific 
judgments. Intelligent laypeople, even people as intelligent as 
Members of Congress, can't judge the technical quality of 
modern research. The National Institutes of Health and the 
National Science Foundation have shown the way to partner 
scientific and political decision making. They invite 
researchers to submit competitive--I underlined that--
competitive proposals to meet national priorities. Grants are 
awarded to the best proposals as evaluated by a combination of 
scientific merit judged by scientists, and national need as 
judged by Congress and stakeholders. The Act includes 
recommendations for face-to-face meetings between stakeholders 
and scientists.
    Second, funding has lagged for years and must be increased. 
The NIH spends about $15 on research for every dollar spent by 
the USDA; about $150 in competitive peer review grants for 
every dollar so awarded by the USDA. The national priorities, 
it seems to me, are out of balance.
    A few more points. Our proposals are narrow and focused. 
They don't touch existing research authorities. We recommend 
new money to begin to reverse the chronic underfunding of 
competitive agricultural research and also so as not to compete 
with the ongoing, well-done, badly needed national needs of the 
other USDA research programs. We recommend mandatory funding 
because of the failures of past reports and because we believe 
that a new way of doing things will need protection for a 
number a years. We believe such innovation will pay off. There 
has been, in preparation, a study by the Economic Research 
Service of the USDA that does suggest that perhaps agricultural 
research payoff is greater than was mentioned earlier and I 
think it is worth pressing for those results and seeing what 
comes of them. The challenges are very pressing today. We 
shouldn't delay them. We need to keep up our competitive edge 
and meet the challenges.
    So Mr. Chairman, I recommend the adoption of the National 
Institute for Food and Agriculture Act and the research title 
of the 2007 Farm Bill. The legislation has the support of key 
agricultural groups, including the American Soybean 
Association, the National Pork Producers Council, the National 
Farmers Union, the National Turkey Federation, the National 
Corn Growers Association, and the National Chicken Council. I 
thank you.
    [The prepared statement of Dr. Danforth follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Danforth. The chair was 
negligent and Dr. Danforth, you were right on target. If you 
can keep your remarks to 5 minutes and submit your entire 
testimony for the record. We would like keep things moving 
along. There is another hearing that is behind us in this room. 
So Dr. McPheron?

STATEMENT OF DR. BRUCE A. McPHERON, ASSOCIATE DEAN FOR RESEARCH 
                   AND DIRECTOR, PENNSYLVANIA
AGRICULTURAL EXPERIMENT STATION, PENNSYLVANIA STATE UNIVERSITY, 
UNIVERSITY PARK, PA; ON BEHALF OF NATIONAL ASSOCIATION OF STATE 
              UNIVERSITIES AND LAND-GRANT COLLEGES

    Dr. McPheron. Thank you, Mr. Chairman, for the opportunity 
to discuss the land-grant system's CREATE-21 proposal. I am 
told that you, Ranking Member Lucas and your staff have been 
thoroughly briefed, so I will summarize the proposal and refer 
you to our written statement and legislative language for 
additional detail.
    As you know, CREATE-21 has two fundamental purposes. It 
will bring together in a single organization the research 
agency's programs, personnel and facilities spread across USDA, 
and more tightly integrate this intramural research capacity 
with the extramural research, teaching and extension capacity 
within land-grant universities and related institutions. It 
will also double USDA funding authorizations for food, 
agricultural and natural resources, teaching, research and 
extension programs, to address the dozens of critical and 
urgent national problems that will remain unsolved unless USDA 
science program levels are substantially and immediately 
increased.
    With respect to funding, we propose to dedicate 70 cents of 
each new dollar for competitively awarded grants, with the 
remaining 30 cents used to stabilize the capacity programs that 
support the basic USDA and land-grant infrastructure. In 
addition, we have specific provisions to address the tremendous 
unmet capacity and competitive program needs at America's 
historically black land-grant universities, tribal colleges and 
other minority-serving institutions.
    The land-grant community has coalesced behind CREATE-21 
because we believe that neither the status quo nor halfway 
measures are acceptable. To illustrate why a comprehensive 
approach dealing with both organizational and funding issues is 
absolutely necessary, let me present an example of an urgent 
national problem that would be better addressed under CREATE-
21. The example I have chosen relates to the sudden and 
wholesale disappearance of honeybee colonies and these are the 
essential facts. Beginning in late 2006, beekeepers reported 
sudden catastrophic losses of honeybee colonies on a scale that 
they had not previously experienced. The problem is widespread 
and unexplained. Honeybees are incredibly important, 
pollinating some $15 billion worth of fruit, vegetables and 
forage crops each year. There are a variety of potential 
explanations for the problem, including mites, pathogens such 
as viruses, bacteria, fungi and protozoans, pesticides, colony 
transportation issues, imported bees and royal jelly. It is 
likely that a combination of these elements will be implicated. 
Penn State and other land-grant universities have been 
collaborating with Federal and state agencies to investigate 
the problem and develop responses.
    So what does this problem have to do with CREATE-21? Well, 
let me make five quick points. First, it underscores the vital 
link between research and extension. This problem was first 
reported by a beekeeper, one of our stakeholders, through the 
cooperative extension system at Penn State, and the close link 
between our extension and research programs permitted us to 
immediately design research experiments and get into the field.
    Second, it points out the enduring value of capacity 
funding. Hatch and Smith-Lever funds provide Penn State and 
other land-grant universities with support for the world-class 
laboratories, scientists and staff necessary to attack urgent 
national problems.
    Third, it demonstrates the significance of a national 
network of state agricultural experiment stations and 
cooperative extension units. While Penn State is at the 
forefront of this effort, we are collaborating with land-grants 
in dozens of states, from North Carolina to Washington.
    Fourth, it illustrates the need for greater integration 
among USDA agencies and the Department's external partners. 
Both ARS and CSREES have national program leaders in this area 
and both agencies are sponsoring the search. While there is ad 
hoc coordination, there is no clear and simple integration as 
would be the case under CREATE-21.
    Fifth and finally, it shows the importance of fundamental 
research. Recently the honeybee genome was sequenced and as a 
result, researchers are able to narrow the focus of their 
current investigations and should be able to produce results 
more rapidly.
    In summary, Mr. Chairman, this is a good example of what we 
are promoting under CREATE-21 and what we hope will emerge from 
this Subcommittee: enhanced capacity funding, increased funding 
for fundamental research, and greater integration among USDA 
agencies and better coordination with the Department's external 
partners.
     In conclusion, let me offer an analogy for your 
consideration. The current USDA science apparatus is like an 
old pickup with 300,000 miles that served its owner extremely 
well over the years. A prudent farmer wouldn't simply put on a 
new pair of tires. He would give it a thorough tune-up, too. So 
Mr. Chairman, we stand ready to help you with both the tune-up 
and the new tires. Thank you for the opportunity to present our 
views and I stand ready for your questions.
    [The prepared statement of Dr. McPheron follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, thank you, Dr. McPheron. And as I 
mentioned to the previous panel, we are going to be marking up 
in 2 weeks and we are certainly going to need your help. Dr. 
Norton?

        STATEMENT OF DR. GEORGE W. NORTON, PROFESSOR OF
         AGRICULTURAL AND APPLIED ECONOMICS, COLLEGE OF
  AGRICULTURE AND LIFE SCIENCES, VIRGINIA TECH, BLACKSBURG, VA

    Dr. Norton. Thank you, Mr. Chairman. I am pleased to be 
here today representing my own views as a specialist in 
agricultural research evaluation, but also representing the 
views of Dr. Sharron Quisenberry, Dean of the College of 
Agriculture Life Sciences at Virginia Tech, and also Dr. Elsa 
Murano, Dean of the College of Agriculture Life Sciences at 
Texas A&M University and Director of the Texas Agriculture 
Experiment Station.
    Our joint Federal-state partnership in agricultural 
research has helped to make U.S. agriculture among the most 
productive in the world. Unfortunately, agricultural 
productivity has slowed since about 1990. This slowdown is due 
in part to a slowdown in funding in agricultural research that 
began about 1980. At the same time, the need for environmental, 
nutrition and health, bio-based energy, rural development and 
other issues have grown. Numerous studies have documented 
extraordinarily high rates of return to public investments in 
agricultural research, so it is imperative that we adequately 
support this research and manage it efficiently. Proposals have 
been presented that would restructure how public agricultural-
related research is conducted and supported and my remarks are 
going to address both organizational and funding issues.
    The core research capacity of USDA is essential for 
maintaining long-term research on national issues, while 
research at state agricultural experiment stations ensures 
responsiveness to local as well as regional and national needs. 
Federal support for state agricultural experiment stations 
leverages significant state and private resources. It 
encourages individual states to address multi-state needs by 
partially compensating them for benefits of their research that 
spill over to other states. The recent CREATE-21 proposal calls 
for formation of a set of six national institutes for 
agriculture, run by a director who reports to the Secretary of 
Agriculture.
    The Administration proposes a somewhat simpler plan, 
merging, as you know, ARS with CSREES without ERS and the 
Forest Service. However, they would keep the new unit under the 
purview of the Under Secretary of Research, Education and 
Economics within USDA. It is our view that moving agencies 
around in a major way to form new ones is seldom an efficient 
way to solve a problem. The inefficiencies created in the 
transition can well out weigh the eventual benefits. The 
current system is relatively responsive to local stakeholders, 
flexible to address emerging problems that has generated high 
returns. A more consolidated top-down system runs the risk of 
losing stakeholder support at the local level for perhaps a 
marginal gain. We just don't quite see the benefits to farmers, 
ranchers and other stakeholders.
    Second, an Under Secretary might be better able to stand 
than a director to stand toe to toe with other sub-cabinet 
members of USDA to advocate for his or her unit.
    Third, CREATE-21 calls for merger of intramural and 
extramural funding into one budgetary line. While the 
Administration proposes merging CSREES and ARS, it would keep 
the intramural versus extramural funding roughly in balance, as 
we heard this morning from Dr. Buchanan. We feel this balance 
is essential to the complimentary roles that are played by ARS 
and state agricultural experiment stations.
    Let me turn to funding. CREATE-21 calls for doubling of 
expenditures on agricultural and related research. This goal, 
while it may be difficult to achieve, there is little question 
that lack of research funds in recent years has hurt 
productivity in agriculture. This has hindered our ability to 
achieve our other goals. Improving productivity is essential 
for trade, it is essential as our need for agriculture to 
supply fuel expands, and specialty crops assume increased 
importance.
    The need is great, but making a case for ag research 
requires expressions of need by local and regional, in addition 
to national, constituencies. Reorganization will not buy much 
if local interests groups have little voice in establishing 
priorities. Because crops, livestock and forests are sensitive 
to geoclimatic and economic conditions, many important 
agricultural and natural resource problems are local or 
regional. In recent years, competitively funded programs have 
grown at the expense of core capacity programs. An appropriate 
balance in the growth of both types of funding is needed. 
Formula funds facilitate long-term, high-payoff research, they 
support salaries of scientists, fund research infrastructure to 
help state agricultural experiment stations respond quickly to 
crises such as the recent soybean rust problem that we had a 
couple of years ago, and they leverage state funds. They 
minimize transaction costs of scientists so they spend more 
time on their research and less on writing grant proposals for 
shorter-term projects.
    Competitive grants are excellent for funding cutting-edge 
science needed to solve national problems, for which research 
can be done of shorter duration. They are less well suited for 
funding long-term research capacity, as required to meet local 
and regional in addition to national needs; also for responding 
to immediate crises. When these needs are neglected, support 
from broad-based constituencies tends to erode. We caution 
against drastic reorganization of agriculture and related 
research in USDA and call for an appropriate balance in formula 
and competitive funds. Programs currently in place to assure 
accountability and flexibility to changing stakeholder needs 
should be enhanced. Our public agricultural research system is 
effectively responding to the scientific revolution that is 
underway in biological sciences, but it is underfunded given 
the high rates of return that we see for agriculture research; 
and the need for a broad agenda. The basic problem is funding. 
It is not really the organization of USDA, but it is basically 
a funding problem. Thank you.
    [The prepared statement of Dr. Norton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Norton. Dr. Bouton?

 STATEMENT OF JOESEPH H. BOUTON, Ph.D., SENIOR VICE PRESIDENT 
                AND DIRECTOR, FORAGE IMPROVEMENT
DIVISION, THE SAMUEL ROBERTS NOBLE FOUNDATION, INC.; PROFESSOR 
      EMERITUS, UNIVERSITY OF GEORGIA, ATHENS, ARDMORE, OK

    Dr. Bouton. Thank you, Chairman Holden, Congressman Lucas 
and Members of the Subcommittee, for inviting me to testify. 
USDA research efforts and strategies are important to the 
future of domestic agriculture, the prosperity of rural 
America, and potentially the energy security of this Nation.
    As a brief background, the Noble Foundation, founded in 
1945, is a private, nonprofit institute located in rural 
Oklahoma. The Noble Foundation has more than 320 employees from 
27 countries, more than 80 with Ph.D.s. In addition to a state-
of-the-art research campus, we own and manage more than 15,000 
acres for research and demonstration purposes. Our operations 
extend from the laboratory to the field and our research 
outcomes have international applications. Our scientists use 
molecular biology, genetics and genomics to explore basic plant 
mechanisms. Using both modern plant breeding and genetic 
technologies, we move discoveries into crops, primarily forage 
and pasture crops, like clovers, alfalfa and grasses.
    Finally, our agricultural specialists work on both our 
farms and farms of more than 1,400 producers within a 100 mile 
radius of Noble to help them achieve their operational goals. 
These services are offered at no cost and are estimated to 
contribute $15 million annually to the program participants' 
bottom line. We regularly participate in public stakeholder 
discussions to set USDA research priorities, serve on review 
teams to assess their national programs, compete for USDA 
grants and collaborate with USDA-ARS scientists, for example, 
the talented scientists at the U.S. Dairy and Forage Research 
Center in Madison, Wisconsin.
    We have considered the USDA's proposed Agricultural 
Bioenergy and Bio-Based Products Research Initiative with much 
interest: $500 million over 10 years, targeting renewable fuels 
and bio-based products. The stated objectives of this 
initiative are to improve biomass production and sustainability 
and improve biorefinery conversion techniques. These two 
objectives historically have received millions of dollars from 
the Federal Government. Due to these investments, private 
entities are now entering these spaces. For example, due to our 
forage grass research, the Noble Foundation has taken a 
leadership position in the improvement of switchgrass as a 
dedicated energy crop. Our program leverages plant varieties 
developed in the 1990s during my tenure at the University of 
Georgia, for the DOE's Herbaceous Bioenergy Feedstock Program.
    To move our research into the marketplace, we have entered 
a long-term collaboration with Ceres, Inc. of Thousand Oaks, 
California. Through this collaboration, we are creating new, 
more productive switchgrass varieties through breeding and 
hybrid techniques. Switchgrass is in its infancy as a 
production crop. We are confident that, with modern breeding 
tools, significant improvements can be attained in a relatively 
short period of time, much shorter than the 70 years it took 
for corn to reach its current production levels. We have moved 
our first-generation switchgrass varieties into broad 
geographic evaluations across the U.S. This year we will have 
more than 25 evaluation sites assessing variety performance. 
Through these trials, we have seen on average a 20 percent 
increase in tonnage of the new varieties over current 
commercial switchgrass varieties. Ceres, further, is increasing 
seed of these new varieties, with the intent of a 2009 
commercial release.
    Importantly, Noble's serious collaboration goes much 
further than simply creating improved switchgrass varieties. We 
are developing a handbook to assist producers in establishing 
and sustaining cultivated switchgrass. In the near future, 
domestic agriculture will see the emergence of switchgrass 
farmers. Unlike farmers in traditional crops, they will not 
have the benefit of generational knowledge passed from their 
fathers, grandfathers or farming leaders in their communities. 
There is no production scale acreage of switchgrass in the 
United States. Educational resources will be important for 
these true pioneers. We are also establishing the economics of 
the dedicated energy crops. Little is known about this topic 
for these crops on a commercial scale. An understanding of the 
actual cost is necessary to allow producers to evaluate market 
alternatives.
    As the Subcommittee writes the 2007 Farm Bill, it is 
important to remember that the private sector now possesses an 
ability to grow and manage--to begin growing and managing 
bioenergy crops and conversion technologies--and as such is 
well beyond basic science for the advancement of these fields. 
Consequently, there are other areas that could benefit from 
focused research: Biomass handling, harvest, storage and 
transport is one of them; grower management plans for various 
geographies; long-term understanding of soil nutrition to 
support high-yielding perennial bioenergy crops; carbon and 
nutrient sequestration; integration of the dedicated energy 
crops into existing farming and agricultural operations.
    In conclusion, the Noble Foundation welcomes the 
opportunity to be a resource for this Subcommittee. Thank you 
for considering these issues and thank you for the invitation 
to discuss these matters. I will be glad to answer any 
questions.
    [The prepared statement of Dr. Bouton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Bouton. And Dr. Bouton, I 
think I will start with you. You mentioned that you believe the 
cellulosic ethanol market could be viable in 2009?
    Dr. Bouton. No, sir.
    The Chairman. Much less than the 7 years for corn ethanol?
    Dr. Bouton. No, sir. The industry itself will take some 
time. When I was talking 2009, with the newer switchgrass 
varieties with higher yield will be available by 2009.
    The Chairman. 2009.
    Dr. Bouton. Yes.
    The Chairman. We will ask you and then maybe other members 
of the panel: When do you believe the earliest could be 
conceived that we would have a viable cellulosic ethanol market 
in the U.S.? The plants will be up and running and it will be a 
true alternative using renewable feedstocks.
    Dr. Bouton. Well, we are starting to see some of the first 
plants that have cellulosic ethanol production capability 
starting to go in, and I think the DOE just put out five plants 
or funding for five plants. We are also hearing from private 
companies like Abengoa and Iogen, that they will have plants on 
board fairly soon, but they will be in pilot and demonstration 
scales in the early days.
    The Chairman. Well, again, when do you--and other members 
of the panel, please feel free to jump in here--when do we 
think it is realistic that we are going to have a serious 
effort and a serious production; that we are going to be able 
to make some giant steps forward here to get the plants up and 
running and be able to get the product to market and really 
have alternative uses? Dr. McPheron, we asked that when I was 
at Penn State as well. We talked.
    Dr. McPheron. Yes, Mr. Chairman, we did talk about that a 
little bit up there and I am afraid that my answer is the same 
as we hear from the Noble Foundation. We see these plants 
coming on as pilot-scale demonstration sorts of production and 
there is a very compelling question about when they are going 
to be actually a competitive source of alternative fuels.
    The Chairman. Dr. McPheron, just following up, you 
mentioned capacity funding; could you elaborate a little bit on 
that. What exactly were you talking about with capacity 
funding?
    Dr. McPheron. Yes, sir, I am happy to do that. Within the 
CREATE-21 proposal, we are looking at funding from multiple 
streams. The capacity funding we are referring to would be 
funding sources that currently exist, like the Hatch funding, 
Smith-Lever, Evans-Allen, McIntire-Stennis, programs that we 
have heard mentioned earlier this morning by Dr. Buchanan. We 
feel that it is a compelling and necessary part of looking to 
the future to maintain that underlying capacity that supports 
our personnel and our facilities. There are similar sorts of 
funding levels or funding programs that support ARS, ERS and 
the USDA Forest Service Research and Development that are 
covered in our proposals. So when we refer to that capacity, we 
are committed to preserving that level of capacity which gives 
us the solid base of people and facilities from which to 
respond to emerging problems and needs.
    The Chairman. Thank you. Dr. Danforth, you mentioned 
competitiveness at USDA. I assume you believe that it should be 
more competitive in nature. Is there anything that this 
Subcommittee could do, anything specific to try to have more 
competitiveness with the USDA's efforts?
    Dr. Danforth. Yes, Mr. Chairman, we did lay out in our 
proposal a plan for establishing the National Institute for 
Food and Agriculture, which would be devoted only to 
competitive grants. It has been very hard for the USDA to mount 
a very large competitive grant program, for some of the reasons 
I think that Chairman Peterson mentioned earlier today, that 
appropriation subcommittees have not been as sympathetic to 
bringing more scientific decision making into the process. If 
you are going to have competitive grants, you have to put out 
RFPs and then you have to have them, the scientists from any 
walk of life, apply to help deal with that particular problem, 
and then you have to judge the best science that is coming 
forward. And we recommend that there be panels of scientists 
who judge the science, recommend and give it grades for the 
quality of the science, and then a second review that reviews 
not just the quality of the science but also the importance of 
the science to meeting national needs. I think it would require 
that sort of setup within the USDA to do that sort of thing.
    The Chairman. Thank you. Mr. Lucas?
    Mr. Lucas. Thank you, Mr. Chairman, and I can't help but 
think about Chairman Peterson's observations and yours and of 
course, the great challenge as authorizers we always face is 
being caught in a squeeze between the appropriators and the 
United States Senate, since we are the rational part of the 
equation, but that is a personal observation.
    Dr. Bouton, it seemed to me in your testimony that you were 
suggesting, perhaps, that Federal funding for bioenergy should 
be focused on infrastructure improvement, grower education, and 
other areas that some might define as unrelated to basic 
research. You further seem to be suggesting that this area 
could be handled most efficiently by the private sector. Could 
you expand on that or did I understand you correctly? Provide 
us with some insights.
    Dr. Bouton. Well, for us, I think we feel that this 
industry, even though you are looking at it as national, it is 
going to be local in scope. And so for us there at the Noble 
Foundation and our 100 mile radius there that we really can 
see, these are questions that are coming from our producers 
already, and it becomes a chicken and egg argument. You know, 
will the plant be there first or will the feedstock be there 
first? So we have a lot of farmers who are willing to step up 
to the plate now and say, ``Okay, we will demonstrate these 
plants, even though they might only be pilot or demonstration 
scale, that we can grow a thousand acres of switchgrass each 
and maybe have several thousand acres there. So when they want 
to kick off, and then the thing will grow from there.'' So we 
see that there is already a need to look at things scale-up; 
going from just small acreages to large acreages, just so they 
could prove that they can have the feedstock available if a 
plant wants to come in there; and they are willing to take the 
risk if they can integrate it, too, into their normal livestock 
operations. So it becomes kind of the ability to do that too. 
It would be very helpful.
    Mr. Lucas. Do you have any comments on the proposals that 
you have been listening to today and the general sense of ag 
research? Any insights from your years of experience?
    Dr. Bouton. As far as the merger, we really don't have a 
position on that. We just know we have worked a lot with ARS 
over the years and some of their--even their biofuels program 
in the northern plains, there in Lincoln, Nebraska--has been 
very, oriented toward that and very good, so we are using a lot 
of their information to bring it down to the southern plains 
and look at it there. So I do agree that we are not concerned 
as much as we are very attentive to what the USDA-ARS is going 
to do.
    Mr. Lucas. Dr. Norton, in my, now, 13 years in this body, 
we have gone through lots of reorganization efforts and lots of 
reallocation and refocus and there is always unforeseen 
consequences there. Could you offer an opinion or two? We have 
heard about the potential benefits of reorganization. Could you 
expand for a little bit on what the potential risk could be, 
too?
    Dr. Norton. Well, I think the greatest risk----
    Mr. Lucas. If you see any risks.
    Dr. Norton. I do see risks. I think the greatest risk is 
loss of support from local constituencies, because it is not 
united, reorganization is not united to funding and in the long 
run you have so many of the needs in agriculture that are 
regional-based and are locally-based. I have a concern that you 
are going to have a council of 12 advisors--if we go with say, 
the CREATE-21 proposal and they will take into account national 
priorities. But I am very concerned about whether we maintain 
the local support. That is one thing.
    There are always inefficiencies that crop up when you 
reorganize, because there are also some reasons for why it is 
organized the way it is, and I see new inefficiencies that can 
creep in as you put up all the additional resources into 
competitive funds--what happens is you end up with another 
level of bureaucracy and time lag for projects which generally 
turn out to be a maximum of 3 years. The scientists are then 
writing proposals continually, spending less time on research, 
and that is a loss in the system that is sometimes hard to 
measure, but it reduces the efficiency of the system. And I 
mentioned that rust example, because I think back to that case 
a couple years ago. When that came out. The system was able to 
respond very quickly, because you had ARS immediately being 
able to use its core capacity to get together with the states 
and put together a task force that still operates and is very 
effective and I worry about a competitive grant. If you tried 
to do that through a competitive grant, what would have 
happened?
    Mr. Lucas. And if the Chairman will indulge me with another 
minute or so? To Dr. Danforth and Dr. McPheron, what are the 
risks of the status quo if we don't?
    Dr. McPheron. Congressman, our feeling with generating 
CREATE-21 and putting it before you is that we have the 
opportunity to basically build on something that started 150 
years ago. This is the final farm bill before the 
sesquicentennial anniversary of the land-grant system. In 1862, 
Congress made a visionary decision to move forward and what we 
have now is the opportunity to really embrace change and 
position ourselves for the next 150 years, with respect to all 
of the challenges in food, fiber, feed and fuel, as we heard 
earlier this morning.
    What we propose in CREATE-21 is not to strip out that local 
responsiveness, but rather to concomitantly grow the capacity 
needs that keep us strong and flexible, and also the 
fundamental and integrated applied research competitive 
programs that are proposed by Dr. Danforth's group. So in a way 
we, in CREATE-21, have embraced both the strong points of the 
Danforth proposal and also the merits of having better 
coordination at the leadership level within the USDA research 
enterprise.
    Dr. Danforth. Mr. Chairman, thanks for the question. To 
solve some of these problems that we have been talking about 
today, one cannot overestimate the difficulty in doing so. 
There are some very tough problems that are going to require 
very good science addressed to them. Now, none of these 
problems will be solved without first having the basic 
knowledge, the basic scientific knowledge that underlies what 
you want to do. Second, having the ability to transfer that 
knowledge; to use it; to educate farmers and others about the 
use of the technology; to fit it in with entrepreneurial 
activity, and to fit it in with the old economic system of the 
United States and our foreign competition. We do not have the 
fundamental science yet, to address these problems optimally.
    You are always adding scientific knowledge and building on 
that and it is that fundamental science that especially needs 
scientific input and judgment in what you fund and how you do 
it. And that is what we tried to recommend, to get that 
fundamental knowledge for the long-term problems that we are 
addressing. I suspect that Congress and the American people are 
going to be addressing these problems, not just for the next 
decade, but for the next 50 years. These are very long-term 
problems we are addressing and we need to do it in the best way 
to do the fundamental science that is going to underlie the 
long-term developments in the U.S.
    The Chairman. Mr. Lucas and I would like to thank the panel 
for your testimony today. As I mentioned to Dr. Buchanan, we 
will begin marking up, in this Subcommittee, May 22nd or 23rd 
and I just want to assure you that your oral statements and 
written testimony will be given full consideration as we try to 
move forward with this farm bill.
    So with that, under the rules of the Committee, the record 
of today's hearing will remain open for 10 days to receive 
additional material and supplementary written responses from 
witnesses to any question posed by a Member of the panel. This 
hearing of the Subcommittee on Conservation, Credit, Energy, 
and Research is adjourned. Thank you.
    [Whereupon, at 12:52 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
